June 29, 2012

TO:             Peter Budetti
                Deputy Administrator and Director
                Center for Program Integrity
                Centers for Medicare & Medicaid Services

                Deborah Taylor
                Director and Chief Financial Officer
                Office of Financial Management
                Centers for Medicare & Medicaid Services


FROM:           /Brian P. Ritchie/
                Assistant Inspector General for the
                  Centers for Medicare & Medicaid Audits


SUBJECT:        Medicare Compliance Reviews for Calendar Years 2009 and 2010: Palmetto
                General Hospital (A-04-11-07025) and West Florida Hospital (A-04-11-08010)


Attached, for your information are advance copies of two of our final reports for hospital
compliance reviews. We will issue these reports to Palmetto General Hospital and West Florida
Hospital within 5 business days.

These reports are part of a series of the Office of Inspector General’s hospital compliance
initiative, designed to review multiple issues concurrently at individual hospitals. These reviews
of Medicare payments to hospitals examine selected claims for inpatient and outpatient services.

If you have any questions or comments about these reports, please do not hesitate to contact me
at (410) 786-7104 or through email at Brian.Ritchie@oig.hhs.gov or Lori S. Pilcher, Regional
Inspector General for Audit Services, Region IV, at (404) 562-7750 or through email at
Lori.Pilcher@oig.hhs.gov.


Attachment


cc:    Daniel Converse
       Office of Strategic Operations and Regulatory Affairs
       Centers for Medicare & Medicaid Services
                                                             O FFICE OF A UDIT S ERVICES , R EGION IV
                                                              61 F ORSYTH S TREET, SW, S UITE 3T41
                                                                               A TLANTA , GA 30303
July 5, 2012

Report Number: A-04-11-08010

Mr. Dennis A. Taylor
President & CEO
West Florida Hospital
8383 North Davis Highway
Pensacola, FL 32514

Dear Mr. Taylor:

Enclosed is the U.S. Department of Health and Human Services (HHS), Office of Inspector
General (OIG), final report entitled Medicare Compliance Review of West Florida Hospital for
Calendar Years 2009 and 2010. We will forward a copy of this report to the HHS action official
noted on the following page for review and any action deemed necessary.

The HHS action official will make final determination as to actions taken on all matters reported.
We request that you respond to this official within 30 days from the date of this letter. Your
response should present any comments or additional information that you believe may have a
bearing on the final determination.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me, or
contact Truman Mayfield, Audit Manager, at (850) 942-8900, extension 22, or through email at
Truman.Mayfield@oig.hhs.gov. Please refer to report number A-04-11-08010 in all
correspondence.

                                             Sincerely,



                                             /Lori S. Pilcher/
                                             Regional Inspector General
                                               for Audit Services


Enclosure
Page 2 – Mr. Dennis A. Taylor


Direct Reply to HHS Action Official:

Ms. Nanette Foster Reilly
Consortium Administrator
Consortium for Financial Management & Fee for Service Operations
Centers for Medicare & Medicaid Services
601 East 12th Street, Room 355
Kansas City, MO 64106
 Department of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL




MEDICARE COMPLIANCE REVIEW OF
  WEST FLORIDA HOSPITAL FOR
 CALENDAR YEARS 2009 AND 2010




                        Daniel R. Levinson
                         Inspector General

                            July 2012
                          A-04-11-08010
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                   EXECUTIVE SUMMARY

BACKGROUND

Title XVIII of the Social Security Act (the Act) established the Medicare program, which
provides health insurance coverage to people aged 65 and over, people with disabilities, and
people with end-stage renal disease. The Centers for Medicare & Medicaid Services (CMS)
administers the Medicare program.

Section 1886(d) of the Act established the inpatient prospective payment system (IPPS) for
hospital inpatient services. Under the IPPS, CMS pays hospital costs at predetermined rates for
patient discharges. The rates vary according to the diagnosis-related group (DRG) to which a
beneficiary’s stay is assigned. The DRG payment is, with certain exceptions, payment in full to
the hospital for all inpatient costs associated with the beneficiary’s stay.

CMS implemented an outpatient prospective payment system (OPPS) for hospital outpatient
services, as mandated by the Balanced Budget Act of 1997, P.L. No. 105-33, and the Medicare,
Medicaid, and SCHIP (State Children’s Health Insurance Program) Balanced Budget Refinement
Act of 1999, P.L. No. 106-113. Under the OPPS, Medicare pays for hospital outpatient services
on a rate-per-service basis that varies according to the assigned ambulatory payment
classification.

Prior Office of Inspector General (OIG) audits, investigations, and inspections identified certain
payments to hospitals that are at risk for noncompliance with Medicare billing requirements.
OIG identified these types of payments to hospitals using computer matching, data mining, and
analysis techniques. This review is part of a series of OIG reviews of Medicare payments to
hospitals for selected claims for inpatient and outpatient services.

West Florida Hospital (the Hospital) is a 547-bed acute care hospital located in Pensacola,
Florida. Medicare paid the Hospital approximately $117.5 million for 13,881 inpatient and
93,553 outpatient claims for services provided to beneficiaries during calendar years (CY) 2009
and 2010 based on CMS’s National Claims History data.

Our audit covered $2,021,049 in Medicare payments to the Hospital for 208 claims that we
judgmentally selected as potentially at risk for billing errors. These 208 claims had dates of
service in CYs 2009 and 2010 and consisted of 200 inpatient and 8 outpatient claims.

OBJECTIVE

Our objective was to determine whether the Hospital complied with Medicare requirements for
billing inpatient and outpatient services on selected claims.

SUMMARY OF FINDINGS

The Hospital complied with Medicare billing requirements for 151 of the 208 inpatient and
outpatient claims that we reviewed. However, the Hospital did not fully comply with Medicare



                                                 i
billing requirements for the remaining 57 claims, resulting in overpayments totaling $172,995 for
CYs 2009 and 2010. Specifically, 55 inpatient claims had billing errors, resulting in
overpayments totaling $144,555, and 2 outpatient claims had billing errors, resulting in
overpayments totaling $28,440. Overpayments occurred primarily because the Hospital did not
have adequate controls to prevent incorrect billing of Medicare claims, and its staff did not fully
understand Medicare billing requirements.

RECOMMENDATIONS

We recommend that the Hospital:

   •   refund to the Medicare contractor $172,995,

   •   strengthen controls to ensure full compliance with Medicare requirements, and

   •   provide training to its staff members to improve understanding of Medicare billing
       requirements.

WEST FLORIDA HOSPITAL COMMENTS

In written comments on our draft report, West Florida Hospital concurred with our
recommendations. West Florida Hospital stated that it has implemented corrective action plans
and intends to be in compliance with all regulations, policies, and procedures of the Medicare
Program. West Florida Hospital’s comments are included in their entirety as the Appendix.




                                                ii
                                                   TABLE OF CONTENTS

                                                                                                                                        Page

INTRODUCTION........................................................................................................................1

      BACKGROUND ...................................................................................................................1
         Hospital Inpatient Prospective Payment System ..........................................................1
         Hospital Outpatient Prospective Payment System .........................................................1
         Hospital Payments at Risk for Incorrect Billing ............................................................2
         Medicare Requirements for Hospital Claims and Payments .........................................2
         West Florida Hospital ....................................................................................................3

      OBJECTIVE, SCOPE, AND METHODOLOGY .................................................................3
         Objective ........................................................................................................................3
         Scope ..............................................................................................................................3
         Methodology ..................................................................................................................3

FINDINGS AND RECOMMENDATIONS ..............................................................................4

      BILLING ERRORS ASSOCIATED WITH INPATIENT CLAIMS ....................................5
          Incorrect Diagnosis-Related Groups ..............................................................................5
          Incorrectly Billed as Inpatient or Without a Valid Physician Order ..............................5
          Incorrectly Billed Discharges With Subsequent Readmissions .....................................5
          Incorrectly Billed Transfers ...........................................................................................6
          Incorrect Reporting of Medical Device Credits .............................................................6
          Incorrect Source-of-Admission for Inpatient Psychiatric Stays ....................................7

      BILLING ERRORS ASSOCIATED WITH OUTPATIENT CLAIMS ................................7
          Incorrect Reporting of Medical Device Credits .............................................................7

      RECOMMENDATIONS ......................................................................................................8

      WEST FLORIDA HOSPITAL COMMENTS .....................................................................8

APPENDIX

      WEST FLORIDA HOSPITAL COMMENTS




                                                                     iii
                                              INTRODUCTION

BACKGROUND

Title XVIII of the Social Security Act (the Act) established the Medicare program, which
provides health insurance coverage to people aged 65 and over, people with disabilities, and
people with end-stage renal disease. The Centers for Medicare & Medicaid Services (CMS)
administers the Medicare program. Medicare Part A provides inpatient hospital insurance
benefits and coverage of extended care services for patients after hospital discharge. Medicare
Part B provides supplementary medical insurance for medical and other health services,
including coverage of hospital outpatient services.

CMS contracts with Medicare contractors to, among other things, process and pay claims
submitted by hospitals. 1

Hospital Inpatient Prospective Payment System

Section 1886(d) of the Act established the inpatient prospective payment system (IPPS) for
hospital inpatient services. Under the IPPS, CMS pays hospital costs at predetermined rates for
patient discharges. The rates vary according to the diagnosis-related group (DRG) to which a
beneficiary’s stay is assigned and the severity level of the patient’s diagnosis. The DRG
payment is, with certain exceptions, payment in full to the hospital for all inpatient costs
associated with the beneficiary’s stay.

Hospital Outpatient Prospective Payment System

CMS implemented an outpatient prospective payment system (OPPS) for hospital outpatient
services, as mandated by the Balanced Budget Act of 1997, P.L. No. 105-33, and the Medicare,
Medicaid, and SCHIP (State Children’s Health Insurance Program) Balanced Budget Refinement
Act of 1999, P.L. No. 106-113. 2 The OPPS is effective for services furnished on or after August
1, 2000. Under the OPPS, Medicare pays for hospital outpatient services on a rate-per-service
basis that varies according to the assigned ambulatory payment classification (APC). CMS uses
Healthcare Common Procedure Coding System (HCPCS) codes and descriptors to identify and
group the services within each APC group. 3 All services and items within an APC group are
comparable clinically and require comparable resources.


1
  Section 911 of the Medicare Prescription Drug, Improvement, and Modernization Act of 2003, P.L. No. 108-173,
required CMS to transfer the functions of fiscal intermediaries and carriers to Medicare administrative contractors
(MAC). This transition occurred between October 2005 and October 2011. Most, but not all, of the MACs are fully
operational; for jurisdictions where the MACs are not fully operational, the fiscal intermediaries and carriers
continue to process claims. For purposes of this report, the term “Medicare contractor” means the fiscal
intermediary, carrier, or MAC, whichever is applicable.

2
    In 2009 SCHIP was formally redesignated as the Children’s Health Insurance Program.
3
 HCPCS codes are used throughout the health care industry to standardize coding for medical procedures, services,
products, and supplies.


                                                         1
Hospital Payments at Risk for Incorrect Billing

Prior Office of Inspector General (OIG) audits, investigations, and inspections identified certain
payments to hospitals that are at risk for noncompliance with Medicare billing requirements.
OIG identified these types of payments to hospitals using computer matching, data mining, and
analysis techniques. The types of payments identified included payments for claims billed for:

    •   inpatient claims paid in excess of charges,

    •   inpatient transfers,

    •   inpatient psychiatric facility interrupted stays,

    •   inpatient psychiatric facility emergency department adjustments,

    •   inpatient claims with same day discharges and readmissions,

    •   inpatient claims for short stays,

    •   inpatient claims billed with high-severity level DRG codes, and

    •   inpatient and outpatient claims involving manufacturer credits for replaced medical
        devices.

For purposes of this report, we refer to these areas at risk for incorrect billing as “risk areas.”

This review is part of a series of OIG reviews of Medicare payments to hospitals for selected
claims for inpatient and outpatient services.

Medicare Requirements for Hospital Claims and Payments

Section 1862(a)(1)(A) of the Act states that Medicare payments may not be made for items and
services that are not reasonable and necessary for the diagnosis or treatment of illness or injury
or to improve the functioning of a malformed body member. In addition, section 1833(e) of the
Act precludes payment to any provider of services or other person without information necessary
to determine the amount due the provider.

Federal regulations (42 CFR § 424.5(a)(6)) state that the provider must furnish to the Medicare
contractor sufficient information to determine whether payment is due and the amount of
payment.

The Medicare Claims Processing Manual (the Manual), Pub. No. 100-04, chapter 1, section
80.3.2.2, requires providers to complete claims accurately so that Medicare contractors may
process them correctly and promptly. Chapter 23, section 20.3, of the Manual states that
providers must use HCPCS codes for most outpatient services.



                                                   2
West Florida Hospital

West Florida Hospital (the Hospital) is a 547-bed acute care hospital located in Pensacola,
Florida. According to CMS’s National Claims History data, Medicare paid the Hospital
approximately $117.5 million for 13,881 inpatient and 93,553 outpatient claims for services
provided to beneficiaries during calendar years (CY) 2009 and 2010.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether the Hospital complied with Medicare requirements for
billing inpatient and outpatient services on selected claims.

Scope

Our audit covered $2,021,049 in Medicare payments to the Hospital for 208 claims that we
judgmentally selected as potentially at risk for billing errors. These 208 claims had dates of
service in CYs 2009 and 2010 and consisted of 200 inpatient and 8 outpatient claims.

We focused our review on the risk areas identified during and as a result of prior OIG reviews at
other hospitals. We evaluated compliance with selected billing requirements but did not use
medical review to determine whether the services were medically necessary. We limited our
review of the Hospital’s internal controls to those applicable to the inpatient and outpatient areas
of review because our objective did not require an understanding of all internal controls over the
submission and processing of claims. We established reasonable assurance of the authenticity
and accuracy of the data obtained from the National Claims History file, but we did not assess
the completeness of the file.

This report focuses on select risk areas and does not represent an overall assessment of all claims
submitted by the Hospital for Medicare reimbursement.

We performed fieldwork at the Hospital from September 2011 through February 2012.

Methodology

To accomplish our objective, we:

   •    reviewed applicable Federal laws, regulations, and guidance;

   •    extracted the Hospital’s inpatient and outpatient paid claims data from CMS’s National
        Claims History file for CYs 2009 and 2010;

   •    obtained information on known credits for replaced cardiac medical devices from the
        device manufacturers for CYs 2009 and 2010;




                                                 3
   •   used computer matching, data mining, and analysis techniques to identify claims
       potentially at risk for noncompliance with selected Medicare billing requirements;

   •   selected a judgmental sample of 208 claims (200 inpatient and 8 outpatient) for detailed
       review;

   •   reviewed available data from CMS’s Common Working File for the sampled claims to
       determine whether the claims had been cancelled or adjusted;

   •   reviewed the itemized bills and medical record documentation provided by the Hospital
       to support the sampled claims;

   •   requested that the Hospital conduct its own review of the sampled claims to determine
       whether the services were billed correctly;

   •   reviewed the Hospital’s procedures for assigning HCPCS codes and submitting Medicare
       claims;

   •   discussed the incorrectly billed claims with Hospital personnel to determine the
       underlying causes of noncompliance with Medicare requirements;

   •   calculated the correct payments for those claims requiring adjustment; and

   •   discussed the results of our review with Hospital officials.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                          FINDINGS AND RECOMMENDATIONS

The Hospital complied with Medicare billing requirements for 151 of the 208 inpatient and
outpatient claims that we reviewed. However, the Hospital did not fully comply with Medicare
billing requirements for the remaining 57 claims, resulting in overpayments totaling $172,995 for
CYs 2009 and 2010. Specifically, 55 inpatient claims had billing errors, resulting in
overpayments totaling $144,555, and 2 outpatient claims had billing errors, resulting in
overpayments totaling $28,440.

Overpayments occurred primarily because the Hospital did not have adequate controls to prevent
incorrect billing of Medicare claims, and its staff did not fully understand Medicare billing
requirements.




                                                4
BILLING ERRORS ASSOCIATED WITH INPATIENT CLAIMS

The Hospital incorrectly billed Medicare for 55 of the 200 sampled inpatient claims that we
reviewed. These errors resulted in overpayments totaling $144,555.

Incorrect Diagnosis-Related Groups

Section 1862(a)(1)(A) of the Act states that Medicare payments may not be made for items or
services that are not reasonable and necessary for the diagnosis or treatment of illness or injury to
improve the functioning of a malformed body member. The Manual, chapter 1, section 80.3.2.2,
requires providers to complete claims accurately so that Medicare contractors may process them
correctly and promptly.

For 11 of 200 sampled inpatient claims, the Hospital submitted claims to Medicare with incorrect
diagnosis codes that resulted in incorrect DRG codes. The Hospital stated that these errors
occurred due to inconsistent application of official coding guidelines and because coders did not
always initiate queries when the medical record documentation was unclear or conflicting. As a
result, the Hospital received overpayments totaling $57,992.

Incorrectly Billed as Inpatient or Without a Valid Physician Order

Section 1862(a)(1)(A) of the Act states that Medicare payments may not be made for items or
services that “are not reasonable and necessary for the diagnosis or treatment of illness or injury
or to improve the functioning of a malformed body member.” Section 1814(a)(3) of the Act
states that payment for services furnished to an individual may be made only to providers of
services that are eligible and only if, “with respect to inpatient hospital services ... which are
furnished over a period of time, a physician certifies that such services are required to be given
on an inpatient basis for such individual’s medical treatment ….” 42 CFR § 424.13(a) states that
“Medicare Part A pays for inpatient hospital services … only if a physician certifies and
recertifies,” among other things, the reasons for continued hospitalization.

For 7 of 200 sampled inpatient claims, the Hospital incorrectly billed Medicare Part A for
inpatient claims that either did not have a valid physician’s order to admit the beneficiary to
inpatient care or should have been billed as outpatient. The Hospital stated that these errors
occurred because of human error and high staff turnover. As a result, the Hospital received
overpayments totaling $46,683.

Incorrectly Billed Discharges With Subsequent Readmissions

The Manual, chapter 3, section 40.2.5, states:

       When a patient is discharged/transferred from an acute care Prospective Payment
       System (PPS) hospital and is readmitted to the same acute care PPS hospital on
       the same day for symptoms related to, or for evaluation and management of, the
       prior stay’s medical condition, hospitals shall adjust the original claim generated




                                                 5
       by the original stay by combining the original and subsequent stay on a single
       claim.

For 3 of 200 sampled inpatient claims, the Hospital billed Medicare separately for related
discharges and readmissions within the same day. In each of these instances, the original claim
and the claim involving subsequent readmission were related to the same medical condition and
thus should have been billed as a continuous stay. However, the Hospital did not adjust the
original claim by combining the original and subsequent admissions onto a single claim.

The Hospital stated that these errors occurred because of human error. As a result, the Hospital
received overpayments totaling $13,423.

Incorrectly Billed Transfers

Federal regulations (42 CFR § 412.4(c)) state that a discharge of a hospital inpatient is
considered to be a transfer when the patient’s discharge is assigned to one of the qualifying
DRGs and the discharge is to a skilled nursing facility or to home under a written plan of care for
the provision of home health services from a home health agency and those services begin within
3 days after the date of discharge. A hospital that transfers an inpatient under the above
circumstances is paid a graduated per diem rate for each day of the patient’s stay in that hospital,
not to exceed the full DRG payment that would have been paid if the patient had been discharged
to another setting (42 CFR § 412.4(f)).

For 4 of 200 sampled inpatient claims, the Hospital incorrectly billed Medicare for patient
discharges that should have been billed as transfers. For these claims, the Hospital should have
coded the discharge status as a transfer either to a skilled nursing facility or to home under a
written plan of care for the provision of home health services. However, the Hospital incorrectly
coded the discharge status to home; thus the Hospital should have received the per diem payment
instead of the full DRG. The Hospital indicated that it has policies in place to correctly assign
the discharge status code based on information available in the patient’s medical record and
believes that human error caused these incorrect codings. As a result, the Hospital received
overpayments totaling $14,420.

Incorrect Reporting of Medical Device Credits

Federal regulations (42 CFR § 412.89) require reductions in the inpatient prospective payment
for the replacement of an implanted device if (1) the device is replaced without cost to the
provider, (2) the provider receives full credit for the cost of a device, or (3) the provider receives
a credit equal to 50 percent or more of the cost of the device.

The Manual, chapter 3, section 100.8, states that to bill correctly for a replacement device that
was provided with a credit, the hospital must code its Medicare claims with a combination of
condition codes 49 or 50 along with value code “FD.”

For 2 of 200 sampled inpatient claims, the Hospital received a reportable medical device credit
from a manufacturer but did not adjust its inpatient claim with the proper condition and value
codes to reduce payment as required. The Hospital stated that these errors were caused by a lack


                                                  6
of communication and documentation between hospital departments. Additionally, coordination
and communication between the departments were not completed in a timely manner. As a
result, the Hospital received overpayments totaling $10,000.

Incorrect Source-of-Admission for Inpatient Psychiatric Stays

Pursuant to 42 CFR § 412.424, CMS adjusts the Federal per diem rate upward for the first day of
a Medicare beneficiary’s inpatient psychiatric facility (IPF) stay to account for the costs
associated with maintaining a qualifying emergency department. CMS makes this additional
payment regardless of whether the beneficiary used emergency department services. However,
the IPF should not receive the additional payment if the beneficiary was discharged from the
acute–care section of the same hospital.

The Manual, chapter 3, section 190.6.4.1, states that source-of-admission “D” is reported by IPFs
to identify IPF patients who have been transferred to the IPF from the same hospital. An IPF’s
proper use of this code is intended to alert the Medicare contractor not to apply the emergency
department adjustment.

For 28 of 200 sampled inpatient claims, the Hospital incorrectly coded the source-of-admission
for beneficiaries who were admitted to the IPF upon discharge from the acute care section of the
same hospital. The patient access registrar normally determines the correct admission source.
However, the Hospital stated that the source-of-admission was miscoded because of human error
in selecting the admission source code. As a result, the Hospital received overpayments totaling
$2,037.

BILLING ERRORS ASSOCIATED WITH OUTPATIENT CLAIMS

The Hospital incorrectly billed Medicare for 2 of 8 sampled outpatient claims, resulting in
overpayments totaling $28,440.

Incorrect Reporting of Medical Device Credits

Federal regulations (42 CFR § 419.45) require a reduction in the OPPS payment for the
replacement of an implanted device if: (1) the device is replaced without cost to the provider or
the beneficiary, (2) the provider receives full credit for the cost of the replaced device, or (3) the
provider receives partial credit equal to or greater than 50 percent of the cost of the replacement
device.

CMS guidance in Transmittal 1103, dated November 3, 2006, and the Manual explain how a
provider should report no-cost and reduced-cost devices under the OPPS. For services furnished
on or after January 1, 2007, CMS requires the provider to report the “FB” modifier and reduce
charges on a claim that includes a procedure code for the insertion of a replacement device if the
provider incurs no cost or receives full credit for the replaced device.

For 2 of 8 sampled outpatient claims, the Hospital received a full credit for a replaced device but
did not report the “FB” modifier or reduce charges on its claim. The Hospital stated that these
errors were caused by a lack of communication and documentation between hospital


                                                   7
departments. Additionally, coordination and communication between the departments were not
completed in a timely manner. As a result, the Hospital received an overpayment totaling
$28,440.

RECOMMENDATIONS

We recommend that the Hospital:

   •   refund to the Medicare contractor $172,995,

   •   strengthen controls to ensure full compliance with Medicare requirements, and

   •   provide training to its staff members to improve understanding of Medicare billing
       requirements.

WEST FLORIDA HOSPITAL COMMENTS

In written comments on our draft report, West Florida Hospital concurred with our
recommendations. West Florida Hospital stated that it has implemented corrective action plans
and intends to be in compliance with all regulations, policies, and procedures of the Medicare
Program. West Florida Hospital’s comments are included in their entirety as the Appendix.




                                               8
APPENDIX
               APPENDIX: WEST FLORIDA HOSPITAL COMMENTS
                                                                                                Page 1 of 6


                                                  'If: 

                                    West Florida
                                          HEALTHCARE

                                                    May 31,2012




  Lori S. Pilcher
  Regional Inspector General for Audit Services
  DHHS OIG
  Office of Audit Services, Region IV
  61 Forsyth Street SW Suite 3T41
  Atlanta, GA 30303

  RE: 	      Medicare Compliance Review of West Florida Hospital
             For Calendar Years 2009 and 2010

  Dear Ms. Pilcher:

          This letter is provided in response to your correspondence dated May 2, 2012, regarding the
  above referenced audit of selected Medicare inpatient and outpatient claims submitted by West Florida
  Hospital (the "Hospital").

          Per the instructions in your letter, provided below are the Hospital's statements of concurrence
  or non-concurrence, and corrective action taken or planned for the following seven (7) areas cited in the
  audit report:

                •   Inpatient-Incorrect Diagnosis-Related Groups
                •   Inpatient-Incorrectly Billed as Inpatient Without a Valid Physician Order
                •   Inpatient-Incorrectly Billed Discharges With Subsequent Readmissions
                •   Inpatient-Incorrectly Billed Transfers
                •   Inpatient-Incorrect Reporting of Medical Device Credits
                •   Inpatient-Incorrect Source-of-Admission for Psychiatric Stays
                •   Outpatient-Reporting of Medical Device Credits

          1) INPATIENT INCORRECT DIAGNOSIS-RELATED GROUPS

                 The audit report concluded that the Hospital billed Medicare with incorrect DRG codes on
             eleven (11) ofthe sampled claims, and recommends that the Hospital Refund overpayments
             related to these claims in the amount of $57,992.00.




                 West Florida                 West Florida                   West Florida
                      HOSPITAL                  REHABILITATION                    PAVILION
                                                  INSTITUTE

8383 North Davis Highway • Pensacola, Florida 32514 • (850) 494-4000 • www.westfloridahospital.com
                                                                                              Page 2 of 6

OIG Audit Response
Page 2 of 6




       A. 	 State of Concurrence:

       The Hospital concurs with the findings of the audit report for these claims and the
       recommended refund.

       B. 	 Corrective Action Taken or Planned:

       This incorrect coding occurred due to inconsistent application of official coding guidelines and
       because coders did not always initiate queries when the medical record documentation was
       unclear or conflicting. The Hospital implemented a plan which included:

           1. 	 Coders were in-serviced regarding error and retraining was performed.
           2. 	 Coders received additional coding courses to enhance their coding knowledge.

   2) 	 INPATIENT INCORRECTLY BILLED WITHOUT A VALID PHYSICIAN ORDER

           The audit report concluded that the Hospital incorrectly billed Medicare Part A for inpatient
       claims that either did not have a valid physician's order to admit the beneficiary to inpatient
       care or should have been billed as outpatient on seven (7) ofthe sampled claims, and
       recommends that the Hospital Refund overpayments related to these claims in the amount of
       $46,683.00.

       A. 	 State of Concurrence:

       The Hospital concurs with the findings ofthe audit report for these claims and the
       recommended refund.

       B. 	 Corrective Action Taken or Planned:

           This incorrect coding occurred due to human error and high staff turnover. The Hospital
           implemented a plan which included:

               1. 	 All inpatient and observation/outpatient cases that have a bed assignment will have
                    a review completed by the unit case manager.
               2. 	 The medical record will be reviewed for status order and physician signature on this
                    order. Any discrepancy in status order will be clarified by the physician.
               3. 	 The InterQual admission criteria review will be completed and documented for all
                    Medicare inpatient admissions. If the criteria is not met for the patient status
                    ordered, the case will be referred to the physician advisor for review.
                                                                                             Page 3 of 6

OIG Audit Response
Page 3 of 6



   3) 	 INPATIENT INCORRECTLY BILLED DISCHARGES WITH SUBSEQUENT READMISSIONS

           The audit report concluded that the Hospital did not combine the original and subsequent
       stay on a single claim for discharges and readmissions within thesame day on three {3} of the
       sampled claims, and recommends that the Hospital Refund overpayments related to these
       claims in the amount of $13,423.00.

       A. 	 State of Concurrence:

       The Hospital concurs with the findings of the audit report for these claims and the
       recommended refund.

       B. 	 Corrective Action Taken or Planned:

           This incorrect billing occurred as a result of human error. The Hospital implemented a plan
           which included:

               1. 	 These accounts will continue to be identified daily, and are now being routed to the
                    Revenue Integrity Department for review.
               2. 	 Revenue Integrity Department to do a Quarterly Focused Review to ensure process
                    is working appropriately and will report results to facility CFO.

   4) 	 INPATIENT INCORRECTLY BILLED TRANSERS

           The audit report concluded that the Hospital incorrectly billed Medicare for patient
       discharges that should have been billed as transfers on four (4) ofthe sampled claims, and
       recommends that the Hospital Refund overpayments related to these claims in the amount of
       $14,420.00.

       A. 	 State of Concurrence:

       The Hospital concurs with the findings of the audit report for these claims and the
       recommended refund.

       B. 	 Corrective Action Taken or Planned:

           This incorrect billing occurred as a result of human error. The Hospital implemented a plan
           which included:

               1. 	 As a quality improvement measure, the HIM department has established a pre-bill
                    review of inpatient accounts. Discharge dispositions are included in quality reviews
                    performed by External Vendor.
               2. 	 Continue to work with Case Management identifying discharge disposition
                    discrepancies as well as continue to monitor the Data Exchange Tool.
               3. 	 Case Management, Coders, and Physicians will be retrained on the need for
                    accurate and timely documentation ofthe expected discharge disposition ofthe
                                                                                               Page 4 of 6

OIG Audit Response
Page 4 of 6



                    patient. They will be reminded of the intent and importance of discharged
                    disposition documentation.
               4. 	 Case Management, Coders, and Physicians will be re-educated on the CMS
                    regulations regarding the Post Acute Transfer Rule.

   5) 	 INPATIENT INCORRECTLY REPORTING Of MEDICAL DEVICE CREDITS

           The audit report concluded that the Hospital received a reportable medical device credit
       from a manufacturer but did not adjust its inpatient claim with the proper condition and value
       codes to reduce payment as required on two (2) of the sampled claims, and recommends that
       the Hospital Refund overpayments related to these claims in the amount of $10,000.00.

       A. 	 State of Concurrence:

       The Hospital concurs with the findings of the audit report for these claims and the
       recommended refund.

       B. 	 Corrective Action Taken or Planned:

           This incorrect reporting occurred due to errors that were caused by a lack of communication
           and documentation between hospital departments. The Hospital implemented a plan which
           included:

               1. 	 Hospital Revenue Integrity Department has established a standardized process for
                    the facility to follow when a device has been provided at reduced cost to the facility.
               2. 	 The department responsible for obtaining the warranty/no cost/reduced cost device
                    will submit a form to Revenue Integrity for each individual account where one of
                    these devices is used. This form will indicate specifically what is being provided and
                    the nature ofthe credit being received (whether it is a partial credit or replacement
                    item under warranty, etc.).
               3. 	 Facility will hold monthly meeting with directors of Cath Lab, OR, Revenue Integrity,
                    Supply Chain and the CFO to review invoices for AICD/pacemakers/leads utilized
                    during a given month to review all devices that were placed to insure that invoices
                    for these items received matches the charges present on individual accounts.

   6) 	 INPATIENT INCORRECT SOURCE-Of-ADMISSION fOR PSYCHIATRIC STAYS

          The audit report concluded that the Hospital incorrectly coded the source-of-admission for
       beneficiaries who were admitted to the IPF upon discharge from the acute care section ofthe
       same hospital on twenty-eight (28) of the sampled claims, and recommends that the Hospital
       Refund overpayments related to these claims in the amount of $2,037.00.

       A. 	 State of Concurrence:

       The Hospital concurs with the findings ofthe audit report for these claims and the
       recommended refund.
                                                                                              Page 5 of 6

OIG Audit Response
Page 5 of 6




       B. 	 Corrective Action Taken or Planned:

          This incorrect coding occurred as a result of human error in selecting the admission source
          code. The Hospital implemented a plan which included:

               1. 	 An HCA compliance edit has been put into place to capture potential admission
                    source accounts. These accounts are identified and routed back to the facility
                    patient access management staff for review daily.
               2. 	 All applicable patient access registration staff were re-educated regarding admission
                    source D.
               3. 	 The Patient Access Admitting Supervisor reviews all internal transfers daily to
                    ensure the correct admission source is selected.

   7) 	 OUTPATIENT REPORTING OF MEDICAL DEVICE CREDITS

           The audit report concluded that the Hospital received a full credit for a replaced device but
       did not report the "FB" modifier or reduce charges on its claim on two (2) ofthe sampled claims,
       and recommends that the Hospital Refund overpayments related to these claims in the amount
       of $28,440.00.

       A. 	 State of Concurrence:

       The Hospital concurs with the findings of the audit report for these claims and the
       recommended refund.

       B. 	 Corrective Action Taken or Planned:

           This error occurred as a result of lack of communication and documentation between
           hospital departments. The Hospital implemented a plan which included:

               1. 	 Hospital Revenue Integrity Department has established a standardized process for
                    the facility to follow when a device has been provided at reduced cost to the facility.
               2. 	 The department responsible for obtaining the warranty/no cost/reduced cost device
                    will submit a form to Revenue Integrity for each individual account where one of
                    these devices is used. This form will indicate specifically what is being provided and
                    the nature ofthe credit being received (whether it is a partial credit or replacement
                    item under warranty, etc.).
               3. 	 Facility will hold monthly meeting with directors of Cath Lab, OR, Revenue Integrity,
                    Supply Chain and the CFO to review invoices for AICD/pacemakers/leads utilized
                    during a given month to review all devices that were placed to insure that invoices
                    for these items received matches the charges present on individual accounts.
                                                                                              Page 6 of 6

OIG Audit Response
Page 6 of 6



         We appreciate the OIG's audit review for the 2009 and 2010 years. It is West Florida Hospital's
intent to be in compliance with all regulations and policies & procedures ofthe Medicare Program.
West Florida Hospital acknowledges the overpayment of $172,995 identified in the recommendation~
section ofthe audit report.

        If you need additional information, please contact me at (850) 494-4125.



                                                Sincerely,




                                                /Randy Butler/

                                                Randy Butler
                                                Chief Financial Officer



RB:em
